<html>
<title> - THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM: SECURING THE COOPERATION OF PARTICIPATING COUNTRIES</title>
<body><pre>[Senate Hearing 109-118]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-118
 
THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM: SECURING THE COOPERATION 
                       OF PARTICIPATING COUNTRIES

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 30, 2005

                               __________

                          Serial No. J-109-23A

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
23-250                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                      JOHN CORNYN, Texas, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                    James Ho, Majority Chief Counsel
                   Jim Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
    prepared statement...........................................    27
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     3

                               WITNESSES

Clariond, Roberta, Professor of International Relations, 
  Technological Autonomous Institute of Mexico, Mexico City, 
  Mexico.........................................................     7
Rozental, Hon. Andres, former Mexican Ambassador at Large, and 
  President, Rozental and Associates, Mexico City, Mexico........     5

                       SUBMISSIONS FOR THE RECORD

Clariond, Roberta, Professor of International Relations, 
  Technological Autonomous Institute of Mexico, Mexico City, 
  Mexico.........................................................    21
Rozental, Hon. Andres, former Mexican Ambassador at Large, and 
  President, Rozental and Associates, Mexico City, Mexico........    29


THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM: SECURING THE COOPERATION 
                       OF PARTICIPATING COUNTRIES

                              ----------                              


                        THURSDAY, JUNE 30, 2005

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
            Citizenship, of the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. John Cornyn 
[Chairman of the Subcommittee] presiding.
    Present: Senators Cornyn, Kyl, Coburn, and Kennedy.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Chairman Cornyn. This hearing of the Senate Subcommittee on 
Immigration, Border Security and Citizenship will come to 
order. I want to thank Chairman Specter for scheduling today's 
hearing and thank Senator Kennedy and his staff for working 
with us on this important hearing.
    Today, we will continue a series of hearings examining the 
need for comprehensive reform of our immigration system. These 
hearings have shown that our Nation's immigration and border 
security system are broken and leaves our borders unprotected, 
threatens our National security, and makes a mockery of the 
rule of law.
    The system has suffered from years of neglect, and in a 
post-9/11 world, we cannot tolerate the situation any longer. 
National security demands a comprehensive solution to our 
immigration system and that means both stronger enforcement and 
reasonable reform of our immigration laws.
    For too long, the immigration debate has divided Americans 
of good will into two camps, those who are angry and frustrated 
by our failure to enforce the law and those who are angry and 
frustrated that our immigration laws do not reflect reality. 
Both camps are right. This is not an either/or proposition. We 
need both stronger enforcement and reasonable reform of our 
immigration laws.
    First, we must recognize that in the past, we simply have 
not devoted the funds, the resources, and the manpower to 
enforce our immigration laws and protect our borders. As 
history demonstrates, reform without enforcement is doomed to 
failure. No discussion of comprehensive immigration reform is 
possible without a clear commitment to and substantial 
escalation of our efforts to enforce the law.
    Recognizing this necessity, on May 26, 2005, Senator Kyl 
and I released the border enforcement portion of our 
legislation which addresses those areas of border security 
which we believe are most in need of reinforcement.
    But, increased enforcement alone will not solve the 
problem. Any proposal must serve both our National security and 
our National economy. It must capable of both securing our 
country and being compatible with our growing economy. Our 
current broken system provides badly-needed sources of labor, 
but through illegal channels.
    As an example, Border Patrol Commissioner Robert Bonner has 
previously testified before this Subcommittee that the vast 
majority of those the Border Patrol apprehends are migrant 
workers simply coming here to work. He testified that the 
Border Patrol is still dealing with a literal flood of people 
on a daily basis, most of whom are attempting to enter the 
country in order to work.
    While the situation we face at the borders represents a 
substantial and unacceptable risk to our National security, it 
also demonstrates why we cannot simply close our borders or 
round up and remove millions of people from within our midst. 
We simply don't have the resources, the facilities, or even the 
ability to identify, locate, and apprehend ten to 12 million 
undocumented workers and their families. In addition, securing 
our Nation's borders at the expense of weakening our economy 
and killing off American jobs is simply not an acceptable 
alternative.
    Any comprehensive solution must address both concerns so 
that law enforcement and border security officials can 
concentrate their greatest energies on those who wish to do us 
harm, not those who wish to work and support their families.
    Our economy would suffer if we removed millions of workers 
from our National workforce, just as it would suffer if we 
removed entire stocks of our natural resources from our 
National inventory. Our economy would be strengthened if all 
workers could simply come out of the shadows, register, pay 
taxes, and participate fully in our economy.
    Today's hearing will focus on the fundamental issue of the 
level of cooperation the United States can expect from 
countries that will benefit from comprehensive immigration 
reform. Workers in this country come from many diverse 
countries. Essential to immigration reform will be increased 
cooperation on border security, efforts to combat human 
trafficking and alien smuggling, and stepped up crime 
prevention from any country that sends workers to our Nation.
    We are addressing these types of issues with Mexico and 
Canada. The United States, Mexico, and Canada have entered the 
Security and Prosperity Partnership Agreement designed to 
develop a common security strategy and promote economic 
development. According to this week's announcement, border 
security remains the central theme of that partnership. I hope 
that the partnership continues to identify additional security 
initiatives that our countries can jointly pursue and that this 
initiative can serve as a model to address security concerns 
that relate to other countries as well.
    In addition to assisting with border security, sending 
countries should further develop strategies that will bridge 
the development gap between our country and theirs so that 
citizens will not want to leave the country of their birth. For 
example, Mexico's leaders have made clear that it is in the 
best interest of their country to keep their citizens in their 
country, if possible. Foreign Minister Derbez has said the 
Mexican government has to be able to give Mexicans the 
opportunity to generate wealth that today they produce in other 
places. And, President Fox has stated, ``Every person has the 
right to find in his own country the economic, political, and 
social opportunities that allow him to reach a full and 
dignified life.''
    I couldn't agree more with these statements. Other 
countries need for their young, energetic risk-takers and hard-
workers ultimately to be able to come back home, and 
particularly to come back home with the capital and the savings 
and the skills they have acquired while working temporarily in 
the United States. They need these people to come back to their 
home country, buy a house, start a business so that these small 
business owners, these potential entrepreneurs can help 
strengthen and build a middle class.
    Today's hearings will explore the relationship of these 
issues to implementing successful immigration reform. 
Ultimately, comprehensive immigration reform will require the 
active cooperation of participating countries, because we will 
have to have better management, communication, and coordination 
between our governments to achieve our goals of protecting our 
National security and strengthening our National economy.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    With that, I would turn the floor over to Senator Kennedy, 
our Ranking Member on this Subcommittee, for any statement he 
cares to make.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Mr. Chairman, and 
thank you for calling the hearing on the importance of the 
cooperation with other governments to help mend our immigration 
system.
    Without the help and cooperation from neighboring 
countries, immigration reforms adopted unilaterally by the 
United States are less likely to succeed. So we need to work 
with Mexico, Central America, Canada on migration problems and 
enforcement. It is in the best interests of all of our 
countries to improve security, too. Bilateral and multilateral 
agreements provide a framework and incentives for safe and 
legal immigration.
    Every year, thousands of Mexicans and Central Americans 
come to the U.S. legally or illegally to work and join their 
families. Illegal immigration continues to increase annually. 
To deal with the growing numbers of undocumented workers, we 
have to modernize our laws to meet the challenges of the 21st 
century. As Mexican officials understand, a guest worker 
program and a path towards earned legalization are two 
essential components of any effective proposal for reform. We 
need fair steps to respond to family needs, economic needs, and 
basic migration patterns between the U.S., Mexico, and Central 
America.
    Another critical component of comprehensive immigration 
reform is border security and control of illegal immigration. 
One of the mistakes we continue to make is throwing money at 
border enforcement as our primary means for reducing illegal 
immigration. By making it more difficult for many Mexican 
citizens to cross the border to work and reunite with their 
families living in the United States, we are essentially 
trapping them inside the United States. It is an incentive for 
desperate families to do whatever it takes to be together. A 
more sound policy is realistic immigration laws that provide 
legal avenues for qualified immigrants and strong enforcement 
of those laws. This plan will restore control of our borders, 
improve national security, and strengthen our economy.
    Another mistake of past immigration bills is to assume that 
we can control illegal immigration on our own. America needs to 
do its part, but Mexico and other countries must do their part, 
too, to replace illegal immigration flows with regulated legal 
immigration. We need a framework for negotiating an agreement 
with Mexico to prevent Mexico from being used as a transit 
corridor for third-country nationals attempting to enter the 
U.S. illegally. We need to work with Canada and Mexico to help 
Guatemala and Belize maintain the security of their borders. We 
need a framework for the U.S. to work with all countries of 
central America to set up a database on the activities of 
criminal gangs, to control alien smuggling and trafficking, 
prevent the use and manufacturing of fraudulent travel 
documents, and share relevant information.
    Under the leadership of President Fox, significant efforts 
have been made to address Mexico's economic problems. 
Remittances from the United States continue to be a principal 
source of income for many Mexican families. Tapping into these 
funds, the Fox administration has adopted promising 
initiatives, such as the Three-for-One Program to match these 
funds with federal, state, and local money. The pool funding is 
then used to build schools, clinics, establish other programs 
to help economically depressed areas of Mexico.
    John McCain and I have included all of these proposals in 
our bill. We know that effective enforcement of our immigration 
laws depends heavily upon the participation and the commitment 
of neighboring governments, and I thank our witnesses at 
today's hearing and look forward to working with them to 
address these important challenges ahead of us.
    Thank you very much, Mr. Chairman.
    Chairman Cornyn. Thank you, Senator Kennedy, and I 
appreciate your hard work on this effort. I know we will have a 
lot of tough work ahead of us, but hopefully this year, we will 
be able to achieve some success that we will all be able to be 
proud of.
    We are pleased today to have a distinguished panel, and I 
will introduce the panel and ask each of you to give opening 
statements.
    Andres Rozental is President of the Mexican Council on 
Foreign Relations. He has also been Mexico's Ambassador to 
various countries, including the United Kingdom, Sweden, and 
its representative to the United Nations. He has also served as 
Ambassador at Large in a special envoy for President Vincente 
Fox. Ambassador Rozental is now President of Rozental and 
Associates, an international consulting firm specializing in 
providing political and economic advisory services to both 
Mexican and foreign companies.
    Joining Ambassador Rozental on our first panel, and only 
panel, is Roberta Clariond. I hope I am pronouncing that 
correctly, Professor. Professor Clariond is a Professor of 
International Relations at the Technological Autonomous 
Institute of Mexico. She holds Master's degrees in Latin 
American studies and international relations from UCLA and the 
University of Chicago. She has been involved in numerous 
seminars and projects on migration.
    We welcome both of you to the hearing, and Professor, we 
want to thank you for agreeing to fill in when your predecessor 
fell ill, but we know you have been working on these issues a 
long time and appreciate your expertise.
    Why don't we begin with the Ambassador, and then we will 
turn to the Professor. Let me ask you please to remember to 
push the button on the microphone in front of you so the light 
shows. That means your microphone is on. We ask you to keep 
your opening statement to around 5 minutes, and then we will be 
able to engage with some questions with the rest of the panel. 
Thank you. Ambassador?

STATEMENT OF HON. ANDRES ROZENTAL, FORMER MEXICAN AMBASSADOR AT 
  LARGE, AND PRESIDENT, ROZENTAL AND ASSOCIATES, MEXICO CITY, 
                             MEXICO

    Ambassador Rozental. Thank you, Mr. Chairman and Senators 
Kennedy and Coburn. Thank you for having me. I have prepared a 
written statement, which I leave with you. I won't read through 
it. I think you will probably find it interesting.
    Chairman Cornyn. We will make it a part of the record.
    Ambassador Rozental. But I wanted to take the opportunity 
of these few minutes to go over two or three points that are 
contained in that statement.
    The first is that in February of 2001, just after President 
Fox was elected and took office as President of Mexico and 
President Bush began his first administration, the two 
governments agreed to work together, guided by a principle of 
shared responsibility, in establishing new mechanisms to allow 
for legal, orderly, safe, and humane migration between both 
countries.
    The working agenda that was set at the time included five 
basic components: Improving border security and safety; 
fighting the root causes of immigration from Mexico through 
economic development initiatives; modernizing and expanding the 
existing temporary worker mechanisms; addressing the status of 
undocumented Mexican nationals currently residing in the United 
States; and reviewing the backlogs of immigration visas and 
also looking at the possibility of taking Mexico and Canada as 
NAFTA partners and neighbors out of the country quota system 
under which the immigration law currently operates.
    These five points, which took up about a year of 
discussions between the two governments, came fairly abruptly 
to a halt after 9/11. It is very satisfying to me, because I 
have been involved in immigration issues between Mexico and the 
United States for about 30-some years now, to see that this is 
now again back on the agenda, both in each of our two countries 
as well as bilaterally.
    The point that I would like to make to you Senators is 
that, and I agree very much with what Senator Kennedy just said 
in his statement, there is no way that this is going to work 
unless it is done together with the source countries. 
Unilateral immigration reform has been tried before in the 
United States. There are lots of precedents for it. Mexico 
engaged to share in the responsibility of an immigration reform 
and an immigration agreement with the United States and it 
would be very important for Mexico to be engaged once again in 
a bilateral fashion on this. There doesn't seem to be any way 
that I can think of that the United States can administer a 
temporary worker program or an earned legalization program or 
any other type of immigration reform of substance if it doesn't 
have the source countries working with it, and this is 
particularly the case with Mexico.
    Now, Mexico has done quite a few things. As you mentioned, 
the Fox administration began a series of programs to make it 
more attractive for Mexicans to remain in Mexico and not come 
to the United States. But it occurs to me that the way the 
social networks have now been formed between the communities of 
Mexicans living in the United States and their families and 
their home country, it is probably unrealistic to think that, 
over the long term, there will not be any incentives for 
Mexicans to come to work in the United States or to live in the 
United States, and I feel very strongly that there should be 
ample ways for them to do it when they do it legally, in an 
orderly fashion, and according to the laws of both countries.
    I also believe that the only way to engage Mexico to 
cooperate in that is through a series of bilateral agreements. 
I think that that is the hook with which you will be able to 
get a Mexican government to cooperate and the Mexican 
government to help implement whatever decisions you take in 
immigration reform.
    We also are about to go through a political process in 
Mexico. There will be Presidential elections in July. And I 
think that it is very important that this engagement take place 
as soon as possible so that through the transition of a new 
Mexican administration, there be the ability to continue to 
work together as the case has been.
    Perhaps in the questions, I will be able to further expand 
on some of the areas in which the Mexican government has been 
working and areas in which it hasn't been working yet but could 
be working if a program were designed to engage the Mexican 
side equally with the U.S. on this and also to find ways to 
undertake enforcement in a way in which both sides work 
together, because border security, enforcement of the law, rule 
of law in general requires both to be able to function.
    I will just finalize with an issue which I have talked 
about a great deal over the years, the circularity of the 
immigration phenomenon between Mexico and the United States is 
an extremely important part of how it worked and how it 
functioned, and the interruption of circularity probably is one 
of the reasons why it is broken today. Thank you.
    Chairman Cornyn. Thank you very much, Ambassador.
    [The prepared statement of Ambassador Rozental appears as a 
submission for the record.]
    Chairman Cornyn. Professor Clariond, please proceed with 
your opening statement.

   STATEMENT OF ROBERTA CLARIOND, PROFESSOR OF INTERNATIONAL 
RELATIONS, TECHNOLOGICAL AUTONOMOUS INSTITUTE OF MEXICO, MEXICO 
                          CITY, MEXICO

    Ms. Clariond. Thank you, Mr. Chairman and Senator Kennedy, 
for this opportunity to speak to you today.
    We firmly believe that the status quo on immigration 
between Mexico and the U.S. is no longer acceptable. Moreover, 
since the infamous attacks of 9/11, the conditions have only 
been aggravated. Because of the current situation, we 
appreciate the opportunity to share our ideas with the Senate 
Subcommittee on Immigration, Border Security, and Citizenship.
    It is necessary to act promptly to develop a new migration 
paradigm on Mexican and Central American immigration to the 
U.S. Almost 75 percent of the current migration flow to the 
U.S. comes from Mexico and Central America. Therefore, I will 
focus the majority of my testimony on these areas.
    In Mexico and Central America, we fully appreciate the 
efforts of this Committee to promote immigration reform. This 
testimony consists of five elements that we believe should be 
considered in the immigration debate that is taking place in 
this legislative chamber.
    The first element is shared responsibility. The new 
migration status quo should be based on shared responsibility 
between the receiving country--the U.S.--and the countries with 
intense rates of migration--Mexico, El Salvador, Guatemala, 
Honduras, and Nicaragua--as the only way to manage a bilateral 
and sub-regional phenomenon.
    There is an urgency to change the paradigm in which Mexico 
and the U.S. operate on migration matters. Traditionally, U.S. 
migration policy has been considered a domestic issue. Thus, 
U.S. authorities have unilaterally managed migration efforts. 
For its part, Mexico for many years had a policy of not having 
a policy. During the Fox and Bush administrations, there have 
been similar steps to engage in a new migration dialogue and 
cooperation. Still, much more has to be done. Mexico and the 
U.S. must increase their level of cooperation in both managing 
the flow of migrants as well as in creating a more secure and 
efficient border.
    It is also necessary to revise the U.S.-Mexico 
institutional framework for dealing with the border and 
migration. A summit involving all agencies in the U.S. and 
Mexico dealing with security, borders, and migration should 
take place. The summit will not only foster a dialogue on 
policies and actions, but it will also create a new binational 
mechanism for security, migration, and border cooperation.
    The second element is comprehensive reform. For security 
matters and given the complicated nature of the migration 
phenomenon, a comprehensive migration reform is necessary. This 
reform cannot only partially address the different challenges 
and problems posed by the high levels of Mexican and Central 
American migration to the U.S., it must deal with needs of both 
sending and receiving countries.
    In addressing five major issues, the Kennedy-McCain 
initiative, Secure America and Orderly Immigration Act, 
represents a substantial change to the current status quo 
addressing the reality of the regional labor market. Mexican 
analysts and advocacy groups, such as the National Migration 
Institute Citizen Council, have urged the Mexican government as 
well as Congress to engage in the Kennedy-McCain effort for 
comprehensive reform.
    The third element is the creation of an efficient and 
secure Mexican Southern border. The border between Mexico, 
Guatemala, and Belize is not simply porous, it is wide open. 
For many decades, an open Mexican Southern border didn't 
represent a major problem, but this is no longer the case in 
the post-9/11 security-oriented atmosphere.
    In the year 2002, Mexican migration officials deported 
138,000 persons, mostly from Guatemala, El Salvador, Honduras, 
and Nicaragua. Last year, the number of deportations increased 
to 215,000. Mexico cannot replicate the California experience 
of the late 1990's of trying to stop the entry of migrants by 
building walls and fences and highly increasing the number of 
border patrol agents. After a decade, it is quite clear that 
those policies only generated negative consequences without 
reducing illegal immigration.
    Besides entering into a dialogue with Central America and 
U.S. authorities, the Mexican government has to implement a 
major effort to strengthen the National Migration Institute and 
organize the different police corps and military operating at 
the Southern border. Corruption among Mexican officers must be 
stopped, both for humanitarian and security reasons.
    The fourth element is to formalize a sub-regional dialogue 
on migration issues. The immigration patterns of the last two 
decades have formed a new hemispheric sub-region composed of 
Mexico, the U.S., and four Central American countries--
Nicaragua, El Salvador, Honduras, and Guatemala. These 
accelerated rates of migration explain some new dynamics that 
are specific to this region. The emergence of transnational 
young criminal gangs, such as the Mara Salvatrucha and the 
Barrio 18, which social ties extend from L.A. to Honduras, is 
one example. In this case, as in many others, it is necessary 
to develop sub-regional approaches to cope effectively with the 
specific challenges of the region.
    The fifth and last element is the areas in which Mexico 
should engage to strengthen the possibilities of a successful 
migration reform in the U.S. As Ambassador Rozental was just 
saying, it is important to return to the circularity of the 
immigration pattern, improve the health and education coverage 
of the Mexican nationals, including those who migrate to the 
U.S., and improving security and border safety, and one example 
could be by cooperating with the U.S. on fighting the criminal 
organizations that smuggle immigrants and operate on both sides 
of the border. Thank you.
    Chairman Cornyn. Thank you very much, Professor.
    [The prepared statement of Ms. Clariond appears as a 
submission for the record.]
    Chairman Cornyn. We will start now with a round of 
questions. Let me start perhaps, Professor, with the subject 
that you were just addressing. Some have called Mexico's 
Southern border America's third border because the transiting 
of criminals, human smugglers, and other activities through 
that border into the United States is a security concern. What 
is Mexico doing to provide greater security along its Southern 
border and to stop Mexico from being a transit point for 
terrorists, drug dealers, violent gangs, and the like?
    Ms. Clariond. Well, as I was just saying, the National 
Institute of Migration of Mexico has increased the number of 
arrests and deportations of immigrants, illegal immigrants, 
especially from Central America into Mexico. I think that to 
address, to really address the problem of the transnational 
gangs as the Mara Salvatrucha and even criminal drug networks, 
we really need to form a sub-regional dialogue to work 
together. We cannot try to address unilaterally these 
challenges because there is not going to be any forum to do it.
    As we said in the report that we handed in before this 
hearing, in Salvador, they tried to implement a zero-tolerance 
policy towards the Maras. The only thing that happened was that 
the Maras, they started to going to Honduras, Nicaragua, 
Guatemala, Belize, and Mexico, and even into the U.S.
    So Mexico cannot develop a unilateral policy, a zero-
tolerance policy. It has to work together with Central America 
and the U.S. in order to really try to approach this challenge.
    Chairman Cornyn. I do know that Mexico has been a good 
partner with the United States in developing strategies for 
security in many respects and we very much appreciate that 
partnership. At the same time, the United States cannot 
intervene in a sovereign nation's affairs. Regarding the 
violence, for example, we see happening in Nuevo Laredo and 
places like that--Ambassador, I would appreciate your 
observations on this--what can the United States do to help 
Mexico further secure law and order within its own borders in 
addition to participating in these partnerships and other 
efforts that we have been engaged in for some time now?
    Ambassador Rozental. My own feeling, Mr. Chairman, is that 
there--and we have just concluded a tri-national task force 
report on the future of North America in which we have 
proposed, in effect, the creation of a security perimeter 
around North America whereby all three countries--Canada, the 
United States, and Mexico--undertake a joint and shared 
responsibility for creating a zone within North America where 
issues such as those that you have mentioned are looked at and 
dealt with insofar as possible trilaterally.
    I agree with you that sovereignty issues always play a role 
in how countries see what goes on within their own territories. 
But I think that it is clear, and from a survey that the 
Council that I chair undertook last year in Mexico of public 
opinion attitudes towards international relations and relations 
with the United States specifically, that Mexicans, by and 
large, understand that these issues need to be addressed 
jointly and that because they need to be addressed jointly, 
they require us to understand that we can have things which 
perhaps in principle look like sovereignty issues but that at 
the end of the day make our own region and our own countries, 
individually and jointly, more secure and safer for the 
citizens within them.
    It was interesting to see that Mexicans by a majority, a 
fairly large majority, agreed to have the stationing of U.S. 
law enforcement personnel within Mexican territory if it meant 
that they would be safer from external threats to North America 
by doing so.
    Chairman Cornyn. Let me ask you about this concept of 
circularity of migration that both, Mr. Ambassador, you and the 
Professor both emphasized. This seems to be a subject that 
comes up repeatedly in our conversations with our friends in 
Mexico. And, it seems to be very consistent with America's 
national interests and the national interests of Mexico, in 
particular, but also with those of other countries in Central 
and South America. People who would come to work in the United 
States for a time would have the ability to cross the border 
during the period of their work visa. Ultimately, to the 
success of economies like Mexico and those of countries in 
Central America, people would actually return home at some 
point with savings and skills, not permanently emigrate to the 
United States.
    Could you please comment on your view of that issue, 
Ambassador?
    Ambassador Rozental. Certainly, Senator. The history of 
migration patterns between Mexico and the United States, and I 
take that particular example because it is the one I know best, 
show that, at times--at the times when there were less, fewer 
obstacles to circularity, that is, to coming and going, the 
numbers of people who came and went, especially the ones who 
stayed in the United States, were much lower.
    It is my understanding, and I certainly--there is no way to 
prove it until we try it, but the fact is that the erection of 
all the barriers that have been put up at the border, the 
fences and the operations and the enforcement measures that 
have been taken, have really only served to ensure that the 
people who do make it across, and they always do make it 
across, stay in the United States because it is much more 
difficult to come and go.
    I feel that if there were sufficient opportunities for 
Mexicans and others to work in the United States legitimately, 
in an orderly fashion, according to United States laws, and to 
come here fairly easily, that is, to obtain visas without a 10-
year waiting period or whatever it is, that there would be much 
less, one, illegality, and two, many fewer people who would 
want to remain in the United States permanently. Again, it is 
difficult to prove it, but I think that the history shows that 
that is the way it worked before the beginning of all of these 
programs to stop people from crossing.
    Chairman Cornyn. Thank you very much.
    Senator Kennedy?
    Senator Kennedy. Thank you both. Let me ask, Ambassador, 
why do you think all five of these points are necessary to 
reform the immigration laws and the sort of chaos lawlessness 
that now exists?
    Ambassador Rozental. Senator, thank you. I believe that all 
five are necessary because they all form part of the 
phenomenon. They all have to do with the issue of immigration. 
I mean, the first, of course, is what do you do about all the 
people who have yet to come to the United States to work, who 
are being demanded for work here, who have job offers and who 
have the ability to be employed?
    The second part is, of course, the several million people 
who are already in the United States without proper 
authorization, and you can't, I think, solve the first issue 
without addressing the second issue, among other reasons, 
because of the constituencies involved within the internal 
domestic political system of the United States and the various 
groups that deal with the issue.
    Border security and safety not only after 9/11, but even 
before 9/11 was a very big issue, and what has happened in 
these recent weeks and months at the border with the United 
States on the Mexican side, although perhaps today more evident 
from media coverage, is not new. There has always been a degree 
of criminal element in the border, at the border, because of 
the illegality of the issues that cross the border, whether it 
is arms smuggling or people smuggling or illegal immigration or 
contraband or anything else.
    The efforts that Mexico needs to make, and these are 
efforts which I think the United States should participate in, 
perhaps together even with Canada, to enhance the opportunities 
for its own citizens within the country, for a developing 
country that has so many other requirements to deal with in its 
social and economic structure is an issue which needs to be 
addressed, as well, because as long as there are areas and 
pockets of poverty in Mexico and states that don't give 
opportunity to their people, then those people will be looking 
for ways to move forward.
    And finally, the country quota system, although on the 
books, in practice is not being observed. There are many more 
Mexicans who get legal and proper visas to come to the United 
States under all of the different programs that are offered for 
them to do that, whether it is family reunification or 
whatever, that if all of this was put in an orderly system and 
Mexicans knew that if they had a job offer here and they could 
come and that the visa would be available within, I don't know, 
30 days if they could prove that they had a job offer and that 
they could come back and forward at the end of that job offer 
or move to another job, that there would be much less of an 
illegality to the system.
    So from my perspective--a former Foreign Minister of Mexico 
called it a ``whole enchilada.'' I wouldn't call it that, but I 
would say that these are very much entwined as issues in the 
immigration phenomenon and, therefore, need to be looked at 
together, including the border security and enforcement issue, 
which I think is very much a matter of consideration of this 
Subcommittee.
    Senator Kennedy. Maybe you have answered this question with 
the first one, but what would happen if our Congress only 
addressed the border security and didn't address the need for 
legal status of the undocumented or a legal avenue of new 
temporary workers? What do you think the result would be?
    Ambassador Rozental. Senator, I think the result would be 
exactly the same as we have had for the last 50 years. You 
would continue to have the same phenomenon of Mexicans crossing 
over to the United States to work. Americans, by the way, 
staying in Mexico to work, as well, without proper 
authorization. I should point out that this is not just a pure 
one-way street. There are many fewer, but there are Americans 
who live in Mexico and work in Mexico without proper 
documentation.
    And I think that the only way that you can address this 
issue and get to the root causes of it is to deal with those 
points in addition to enforcement. The U.S. has done nothing 
but to try to enforce the border up until now, and over 
successive immigration reform acts and all of the money and 
resources, human and financial, that have been put in 
enforcement, it has not made the slightest dent in the actual 
numerical issue of the migration phenomenon.
    Senator Kennedy. Professor Clariond, let me ask you, how 
can we best guard against the corruption, the fraud, the other 
illegal activities by the sort of unscrupulous recruiters and 
make sure the visas are available to qualified workers?
    Ms. Clariond. We are going to start right now cities. The 
H2A and H2B visas that almost were allocated to Mexican 
workers, almost in the number of 70,000 visas last year, there 
is no involvement of the Mexican or the U.S. Government in 
allocating these visas. So they are in hands of recruiters 
which can lead to an increase in the possibilities of 
corruption and fraud. So I think that the best way to guard 
against this kind of illegal activities will be not to let it 
go in the hands of the recruiters and to form an 
intergovernmental task force in Mexico with the participation 
of labor, foreign affairs, interior, and social development 
ministers in order to be able to manage the demand for visas in 
the U.S.
    Senator Kennedy. I think that is a good suggestion. My time 
is up, but I would be interested in following up.
    Also, Ambassador, as I mentioned, my time is up, but I hope 
that sometime you might be able to supplement about your 
reactions to that Three-to-One Program, which I would be 
interested in your ideas. Perhaps the Professor could give us a 
little summary about your own impressions on that, what you 
think its strengths are, its possibilities for expansion.
    Thank you very much, Mr. Chairman.
    Chairman Cornyn. Thank you, Senator Kennedy.
    Senator Coburn has graciously allowed Senator Kyl to go 
first because I know you have a short amount of time to be 
here, Senator Kyl, so please go ahead.
    Senator Kyl. Thank you, Mr. Chairman. I very much 
appreciate that. Senator Coburn, I need to apologize to both of 
you. I am the Chairman of another Committee that is meeting 
right now just down the hall. Fortunately, it is on the same 
floor of the same building, but I do need to return to that.
    So rather than take the time of my colleagues here, I 
wonder if you would be willing if I submitted a couple of 
questions for the record. It would give you time to think about 
the response to that, and I will just tell you a couple of the 
subject matters.
    One of the things, Ms. Clariond, that you mentioned was 
that perhaps Mexico could do more to help the United States 
with interdiction and removal of the third-country nationals, 
sometimes known as OTMs. I am very interested in how that might 
be helpful.
    Mr. Ambassador, I am interested in what Mexico might do to 
realistically work with the United States, cooperate with the 
United States in a temporary worker program. The last 
suggestion might be part of that, and perhaps that could be 
expanded on.
    And then, finally, the third area would deal with what 
recommendations you would have with respect to people who are 
already here illegally as contrasted with those who might 
participate in a guest worker program prospectively and how we 
would make that work.
    But again, let me ask you to submit that for the record so 
that I don't use my colleagues' time here. I again apologize to 
you.
    Thank you, Mr. Chairman, and thank you, Senator Coburn.
    Chairman Cornyn. Thank you, Senator Kyl.
    Senator Coburn?
    Senator Coburn. Thank you, and thank you for your 
testimony.
    Ambassador, a couple of questions I have. The Mexican 
government, I guess it was last year, stopped requiring visas 
for Brazilians, and since that time, we have seen a 
tremendously increased number of Brazilians, not necessarily 
the poorest but some from the lower-middle economic classes 
coming through Mexico as a transit. Can you explain the logic 
behind elimination of the visa requirement for Mexico for 
Brazilians who are coming in and transiting through?
    Ambassador Rozental. Thank you, Senator. Well, I, of 
course, don't represent the government and I with difficulty 
would be able to tell you why certain policies are government 
policy. I suspect that because Brazil is a sister Latin 
American country and because we generally have a suppression of 
visa regime with most of the countries in Latin America that 
this was not an issue.
    I know that the United States government has been in 
discussions with the Mexican government about requiring visas 
for Brazilians. One of the things that has been done recently, 
and I think it is a harbinger of the type of cooperation that I 
think a North American security perimeter would require, is 
harmonization of third-country visa policies. We have done it 
to some extent already, but not fully, and I think that the 
only way to consider it in a wider scheme of things would be 
precisely to have an overall cooperation.
    In the Ottawa meeting of the ministerial groups that 
reported to Presidents Bush, Fox, and Prime Minister Martin of 
Canada just this last Monday, one of the issues which is 
covered in the report is third-country national visa 
harmonization, and it is certainly, I think, one of the issues 
that needs to be looked at.
    One of the things I would like to remind people that I talk 
to about immigration matters in North America is that Canada 
does not require visas from Mexicans. It is a country that 
Mexicans can visit freely for the amount of time that the 
Canadian authorities allow Mexicans to go there, and we have no 
undocumented or illegal immigration issue with Canada 
whatsoever. We have a guest worker program for agricultural 
sector that covers several of the provinces. There are about 
10,000 Mexicans that go every year. They all come home. They 
are all rehired the following year. They now have a 
longstanding presence among their employers. Their employers 
want the same people to keep coming and it works very well.
    That, although the numbers are obviously very different 
from those that could be involved in a U.S.-Mexican temporary 
worker program, it is certainly a possibility and it is a 
bilateral program. That is, both governments administer it 
jointly.
    Senator Coburn. Would you care to guess for us the number 
of visas, H1 and H2 visas, that might be required to fully meet 
the needs that we have on our side as well as the demands 
coming from Mexicans and other than Mexicans on a visa program 
if, in fact, we had an ideal program, much like Canada has? 
Would you have any idea of the number of visas We have had 
discussions on the floor in the Senate. There has been a lot of 
discussion bandied around in terms of the guest worker program. 
Do you have any ideas as to those numbers?
    Ambassador Rozental. The only number that I can give you 
with any authority is the one that, bilaterally, Mexico and the 
United States have been looking at from the time that we did 
our binational study, and that is that it has fluctuated yearly 
between 300,000 and 400,000 people. We don't know how many of 
those people return, so that whether the universe is--are all 
individuals who are different or whether they come and go. But 
presumably, if you were to cover, from the Mexican point of 
view, the total amount, you would be talking about somewhere in 
that ballpark figure.
    If you were to add the Central Americans and other 
countries, OTMs, as they are called, other-than-Mexican 
nationals, it would probably be an additional amount, although 
I think that, statistically, Mexicans cover about 60 percent of 
the numbers.
    Senator Coburn. Professor Clariond, would you have an 
answer to that question or an estimate?
    Ms. Clariond. I agree with Ambassador Rozental. He used--I 
mean, Jeffrey Pascal from the Pew Hispanic Center, his last 
estimates indicate that around Mexican migration to the U.S. 
fluctuates between 420,000 and 480,000, so if you really want 
to have access, give legal channels to this migration, it will 
have to be around that number.
    Senator Coburn. Thank you very much. My time has about 
expired and I will yield back.
    Chairman Cornyn. Thank you, Senator Coburn.
    Professor, one of the burdens that illegal immigration 
places on taxpayers at the local level is the cost of health 
care. We know that it is the most expensive, least efficient 
form of delivery because it is in emergency rooms. The Federal 
Government requires an emergency room to see any patient 
without regard to their citizenship status, without regard to 
whether they have insurance or not.
    In my State, Texas, 25 percent of the population is without 
health insurance, which means that an awful lot of people end 
up going to the emergency room, and many emergency rooms in 
large cities, like Dallas, for example, at Parkland Hospital, 
have to go on ``divert'' status. That is, they can't take any 
emergencies because they are full of people who are not 
emergencies, who don't have health care, who have nowhere else 
to go.
    What kind of obligation would you see that Mexico and any 
other country that would benefit from an authorized worker 
program, what sort of obligations could the United States 
expect them to accept in terms of the health care of their own 
people and relieving some of that burden off of the local 
taxpayers in Texas and places like that?
    Ms. Clariond. Well, the Mexican government clearly needs to 
strengthen its health coverage programs. It just implemented a 
new program called Seguro Popular, that it is a public health 
program for low-income families. These are the families that do 
not have access to any other kind of health system, Social 
Security system in Mexico. The idea is to see if the Seguro 
Popular could be extended to migrants, Mexican migrants in the 
U.S.
    Another idea can be to establish a bilateral or binational 
health coverage system with private enterprises joining in and 
seeing that some of these migrants can receive health care 
attention in Mexico, not only in the U.S.
    Chairman Cornyn. Ambassador, I would be interested in your 
comments in that regard, as well. I think virtually every 
country in the world, as a condition to issuing visas or 
allowing people from other countries to enter that country for 
any extended period of time, require proof of health insurance. 
Would that be one of the alternatives that you think would be a 
reasonable requirement of temporary workers who would be 
admitted to the United States under such a program were it 
adopted?
    Ambassador Rozental. Senator, it works that way with our 
Canadian program, the Mexican-Canadian program. They are 
insured while they are in the United States. Mexican 
undocumented workers usually pay fairly large amounts to the 
smugglers who put them across. If you didn't have to pay that 
and you used that money to partially pay for health insurance 
while you are in the United States, I would suspect that many 
of them would prefer to have health insurance and prefer to 
have access not only to emergency room care, but to general 
health care.
    The other possibility, and this ties in with the issue of 
incentives, I think Mexico and the U.S. need to find together, 
but Mexico needs to do its part, of course, to find incentives 
to keep Mexicans at home, but it also needs to find incentives 
for Mexicans to use Mexican educational, Mexican health, 
Mexican other services that are available.
    Under the understanding that there would be a program which 
the Mexican side would be involved with or shared 
responsibility for, things like a binational health insurance 
scheme, issues relating to the Seguro Popular that Roberta 
mentioned, the possibility which we even discussed back when I 
was Deputy Foreign Minister in the prehistoric times of this 
century--of last century, actually--was to allow for emergency 
health care at the border to be provided on the Mexican side 
rather than on the U.S. side. Now, there is a time problem and 
you can't expect people to make a big trip, but at least along 
the border, and this specifically referred to the State of 
Texas, the idea that Mexicans who needed emergency health care 
could get it on the Mexican side rather than on the U.S. side 
in order to alleviate the cost to the U.S. taxpayer.
    Chairman Cornyn. Thank you. Let me ask again, we talked a 
little bit about the circularity of migration issue and this 
sort of counterintuitive idea--I mean, I understand what you 
are saying, and I have seen this written up in a number of 
places, that by enhancing border security in the United States, 
we have actually locked people into our country, in a sense, 
rather than allowed them to go back and forth.
    But, we all know that we simply can't have an open border 
and we all know that the United States and any country has to 
know who is coming into their country and why. And finally, I 
would say we have to be able to place some reasonable limits on 
immigration. Any nation in its own interest has to be able to 
limit immigration to some rational level, recognizing that 
there is a tremendous demand for the labor provided by 
immigrants.
    I want to press you maybe a little bit, Mr. Ambassador, on 
the security issue again because I don't know how we deal with 
the terrorist who wants to come across if we regard the 
security perimeter as only covering the three countries of the 
United States, Canada, and Mexico. I mean, I wouldn't expect 
you to want American law enforcement to go to Nuevo Laredo and 
intervene in those violent episodes.
    I guess I am wondering a little bit, do you see a 
difference between the way that Americans view sovereignty in 
terms of what our borders mean as opposed to the way Mexicans 
view our border? I sense there would be some difference in 
perception and approach because so many of my friends from 
Mexico seem to view us as a North American continent, not as 
separate nations with sovereign borders.
    Ambassador Rozental. Thank you, Senator. No, I am not one 
of those that feels very strongly either way. I think we have a 
North American sub-region. We have set up a North American Free 
Trade Agreement. We have free movement of goods. We have a fair 
amount of free moment of services. I think that, eventually, as 
a long-term goal, an open border or a free movement of people 
should be a long-term goal.
    I think it is obviously unrealistic to expect that to 
happen today or even in the next 15 or 20 years, but hopefully 
when Mexico is a developed country, when the economy and the 
social structure of Mexico are such that they are more in line 
with the U.S. and Canada, there is no reason why we couldn't 
have a similar situation as to what the Europeans have, and 
that is a fair amount of freedom of movement both for jobs as 
well as for other legitimate activities.
    The issue of stopping terrorists and undesirables, if you 
like, from my perspective, would work better if it were done on 
the other perimeters of our region than if it is done at the 
land borders, which are already extremely congested, saturated, 
where you have the issue of the trade and the commercial 
traffic that goes through. You mentioned Nuevo Laredo. Sixty 
percent of our bilateral trade goes through truck traffic in 
Nuevo Laredo, as you well know.
    If you concentrate all of the resources that you are today 
concentrating on the fight against terrorism and securing the 
U.S. homeland and you don't worry about what is going on on the 
Southern border of Mexico or the Northern borders of Canada or 
the entranceways, gateways into the airports and seaports, you 
are, in effect, only doing half of the job.
    And my point is that you work in looking at North America 
as a region and then you transfer part--not all, but part of 
the security mechanism to the outer perimeter through third-
country national visa harmonization, watch lists, sharing of 
databases, for example, deciding that before you issue a visa 
to come into North America in the U.S. Consulate in Paris or in 
Tehran, you consult the Mexicans and the Canadians as to 
whether they have any information on that individual, things of 
that sort which can increase security and increase the 
protection that you give to the region. That doesn't address 
the issue within the region, but it does address part of the 
issue outside.
    Chairman Cornyn. Thank you.
    Senator Coburn?
    Senator Coburn. I just had one question. It is kind of a 
personal note and it is to ask motivation rather than anything, 
in your opinion. As an obstetrician, I have delivered lots of 
foreign babies in my practice in Oklahoma, most of which are 
Hispanic, but not all Mexican. Is there part, because of our 
citizenship requirements of birth, if you are born in this 
country, does that play a role at all in motivation for coming 
across the border? You know, this is a more frequent occurrence 
in this country, and, of course, there is chain migration 
associated with that in that if you are born here to an illegal 
alien, you are still a U.S. citizen.
    Is that part of the motivation? Is that ever in the 
thinking, or is that just a happenstance of those that are 
here, in your opinion?
    Ambassador Rozental. Senator, I think it certainly is a 
phenomenon that exists. I think it exists much more along the 
Mexican border, in Mexican border cities, especially Tijuana 
and some other places, where more well-to-do Mexican women go 
to have their deliveries in the United States for that reason. 
But I do not think that it plays a very dramatic or important 
role in the general migration phenomena.
    Senator Coburn. If my daughter were pregnant and delivered 
in Mexico, would she be a Mexican citizen?
    Ambassador Rozental. Yes, she would.
    Senator Coburn. The child would? Thank you.
    Chairman Cornyn. Ambassador Rozental and Professor, I read 
with interest about a mortgage program for Mexican migrants 
where Mexican migrants living in the U.S. can obtain mortgages 
to buy homes in Mexico. Supporters of the program argue that it 
will increase the standard of living of the families of 
migrants in Mexico and it will reinforce migrants' roots in 
their native country.
    What steps do you think Mexico and other countries can take 
to increase economic opportunity at home to maintain ties to 
one's homeland in a way that promotes the circularity of 
migration you are talking about and prevents the severance of 
ties on a permanent basis with their home country such that 
they are more likely to permanently emigrate to the United 
States? Professor, would you like to take a stab at that first, 
please?
    Ms. Clariond. Yes. Thank you, Senator. The Mexican 
government recently has implemented a program on transnational 
mortgage, as you were saying, to make housing available for 
low-income families. So I think it will, as part of any 
temporary worker program between Mexico--that Mexico cooperates 
with the U.S., it will be--the Mexican government can broaden 
this program and make it accessible for Mexican immigrants to 
come back, as an incentive to come back and be able to own 
their own house and their family--for their family. This 
really, as we all know, owning a home is part of strengthening 
your ties to your community of origin. So I think this will 
provide to be an important economic incentive for migrants, 
Mexican migrants in the U.S. to go back.
    Chairman Cornyn. Ambassador, one proposal that I am 
familiar with--that I learned about from Senator Phil Gramm, my 
predecessor--I embraced in a bill I sponsored last year. It 
would allow the withholding from a worker's pay (someone who 
works on a temporary basis in the United States and would not 
be eligible for Social Security through the United States or 
Medicare) sums that would ordinarily be withheld, and it would 
put them in a separate account for the worker. The sums would 
only be made available to the worker upon return to his/her 
country of origin. The belief is that this would provide yet 
another incentive for the worker to return home by providing 
him/her with some capital--savings that would be beneficial to 
the worker and to the country of origin because it could be 
used to buy a home, start a small business, or otherwise 
contribute to the economic development of that country. Do you 
see that as one potential approach that we could use, or are 
there positives or negatives associated with that?
    Ambassador Rozental. Thank you, Senator. The Social 
Security Administration in this country and the Mexican Social 
Security Institute signed an agreement back in June of last 
year, a so-called totalization agreement, which allows Mexicans 
who work both in the United States and in Mexico to be able to 
retire and get Social Security benefits from both under this 
agreement. It works also for Americans who work in Mexico. It 
also avoids dual Social Security taxation, which is an issue 
that people who work in both countries have to deal with.
    That agreement, which was negotiated and signed by both 
governments, is still pending submission to this Senate and 
also pending submission to the Mexican Congress for 
ratification. Once it is ratified, it will go a long way 
towards doing exactly what you mentioned.
    Whether you could also add to that the possibility of a 
withholding for a savings account, an IRA-type system where you 
would have something for when you went back home, I think is 
certainly a feasibility. The number one use in Mexico of 
remittances sent by Mexican migrant workers home is for the 
purchase of a home.
    Chairman Cornyn. I know occasionally, I hear people say 
that one reason why Mexico and other countries are not 
committed to immigration reform in the United States is because 
these countries depend on the remittances sent from workers 
here in the United States. I think that is wrong. I disagree 
with those who argue that because if you would estimate that 
the remittances, the amount of money actually sent, let us say 
from the United States to Mexico, which I think is in the $16 
to $17 billion range per year, represents the savings rate by 
immigrants, let us say it is ten percent of one's earnings, 
Mexico might be the beneficiary from an economic standpoint of 
that $16 or $17 billion, but it represents an additional 90 
percent of economic activity which is taking place in the 
United States and not in Mexico. So, I have a little difficulty 
with the argument.
    Thus, I might just ask, Ambassador, this question. What 
other steps do you believe that Mexico can take on its own or 
with help from the United States to develop its economy and 
create jobs and opportunities in that country so that, as both 
President Fox and Secretary Derbez have said, Mexicans can 
achieve their life's dreams in their country of origin?
    Ambassador Rozental. I think there are two aspects to the 
question, Senator. The first aspect is the question of the 
incentives that the Mexican government as such can put on the 
table for Mexicans to stay in Mexico or return to Mexico if 
they are not in Mexico or if they travel or take jobs 
elsewhere.
    And the other aspect, of course, has to do with how 
Mexicans themselves see this phenomenon of circularity. I 
mentioned earlier that the way it used to work, before all of 
the obstacles came about, was that most Mexicans would go 
seasonally into the United States and work in the agricultural 
sector to do seasonal work and then go home and have jobs the 
rest of the year. Today, the category of migrants that come 
from Mexico has changed considerably. They are no longer 
predominately agricultural workers. Today, they work in the 
service sector, they work in a whole series of areas of the 
U.S. economy that are not limited to agriculture.
    And they also probably would be better off if they were 
able to deal with their skills in both countries, and many of 
them do, and many of them risk the travail of crossing the 
border and risking being caught and deported and going back 
again because the number of reincidences that the Border Patrol 
and the U.S. Immigration Service documents is rather high, 
which, in effect, again indicates that they are looking at this 
as almost a bilateral labor market in which they would like to 
be able to work a certain period of time, whether it is a few 
months of a year or a few years of a decade in the United 
States and then be able to go home, because that is where their 
families are, that is where their ties are, in some cases that 
is where they own property.
    Again, the circularity issue, the interruption of 
circularity, I think to a great extent has led to the fact that 
the system doesn't work the way it used to.
    On the incentive issue, there are incentives of a financial 
nature. Senator Kennedy and yourself, you mentioned the Three-
for-One Program. This is a program that President Fox put into 
place to match remittances with federal, state, and local--
which is why it is called three-to-one--dollars with investment 
in infrastructure, infrastructure being job creating on the one 
hand and also giving development opportunities to these regions 
of Mexico that generally are poorer.
    Employment incentives--you will be able, presumably, under 
an agreement that those who came back to Mexico would have some 
sort of a fast track into the job market, to be able to get 
employment in an easier way and through a government-sponsored 
scheme where they would be able to enter the job market in 
Mexico in a better system.
    Educational incentives--Mexicans who came to the United 
States and worked here and picked up skills while they were 
here could then go back to Mexico with educational incentives 
to be able to either continue their training and their skill 
building or go into the educational system beyond high school 
and beyond what the average Mexican goes through.
    And then there are the pension and Social Security 
incentives. There is the mortgage incentive that we talked 
about for homebuilding. There are a whole series of issues that 
could be on the table.
    Again, all of these, I think, are conditioned on the 
bilateral nature of the discussion. As I said at the outset, 
the bilateral part of the discussion was interrupted 
fundamentally at 9/11 and has not really resumed as far as 
immigration is concerned since then.
    Chairman Cornyn. Well, thank you very much, Mr. Ambassador 
and Professor. Thank you for your time and testimony on this 
important subject.
    We will leave the record open until 5:00 p.m. next 
Thursday, July 7, for members to submit additional questions in 
writing or additional documents for the record.
    With that, and with my thanks, this hearing is adjourned.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T3250.001
    
    [GRAPHIC] [TIFF OMITTED] T3250.002
    
    [GRAPHIC] [TIFF OMITTED] T3250.003
    
    [GRAPHIC] [TIFF OMITTED] T3250.004
    
    [GRAPHIC] [TIFF OMITTED] T3250.005
    
    [GRAPHIC] [TIFF OMITTED] T3250.006
    
    [GRAPHIC] [TIFF OMITTED] T3250.007
    
    [GRAPHIC] [TIFF OMITTED] T3250.008
    
    [GRAPHIC] [TIFF OMITTED] T3250.009
    
    [GRAPHIC] [TIFF OMITTED] T3250.010
    
    [GRAPHIC] [TIFF OMITTED] T3250.011
    
    [GRAPHIC] [TIFF OMITTED] T3250.012
    
                                 <all>

</pre></body></html>
